Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




  THE MEDICARE CONTRACTORS
      FOR JURISDICTION 11
    OVERPAID PROVIDERS FOR
  SELECTED OUTPATIENT DRUGS



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General

                                                      February 2014
                                                      A-03-13-00011
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  The Medicare contractors for Jurisdiction 11 overpaid providers by $2.2 million for
  selected outpatient drugs over 3 years.

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays Medicare claims through the
Medicare administrative contractor or fiscal intermediary (Medicare contractor) in each
Medicare jurisdiction. From July 1, 2009, through June 30, 2012, Medicare contractors
nationwide paid hospitals $11.5 billion for outpatient drugs, which also include biologicals and
radiopharmaceuticals. Previous Office of Inspector General reviews of outpatient services have
found that Medicare contractors overpaid providers for selected outpatient drugs. This report is
part of a series of reports focusing on payments for selected outpatient drugs.

The objective of this review was to determine whether payments that the Medicare contractors
for Jurisdiction 11 made to providers for selected outpatient drugs were correct.

BACKGROUND

Providers report the outpatient drugs administered to Medicare beneficiaries using standardized
codes called Healthcare Common Procedure Coding System (HCPCS) codes and report units of
service in multiples of the units shown in the HCPCS narrative description. Correct payments
depend on accurate reporting of the HCPCS codes and units of service for each claim line item
billed. CMS designed a series of automatic system edits that Medicare contractors use to review
the units billed by providers, identify errors in billed amounts, and ensure that billed units that
exceed the edit threshold for a likely dose are validated before the claim line items are paid. In
this audit, we did not review entire claims; rather, we reviewed specific line items within the
claims.

Before May 16, 2011, Palmetto GBA, LLC, was the Medicare contractor for North Carolina and
South Carolina, and National Government Services was the Medicare contractor for Virginia and
West Virginia. Effective May 16, 2011, Palmetto GBA became the Medicare contractor for
Jurisdiction 11 (North Carolina, South Carolina, Virginia, and West Virginia) and assumed
responsibility for claims formerly paid by National Government Services. Accordingly, we have
addressed our findings and recommendations to Palmetto GBA for review and comment.

During our audit period (July 1, 2009, through June 30, 2012), the Medicare contractors paid
providers $977.3 million for 1.8 million line items for selected outpatient drugs. We reviewed
2,135 line items with total payments of $12.7 million that were at risk for overpayment.

WHAT WE FOUND

Payments that the Medicare contractors for Jurisdiction 11 made to providers for 900 of the
2,135 line items for outpatient drugs we reviewed were not correct. These incorrect payments
resulted in overpayments of $2,169,751 and underpayments of $16,437 that the providers had not
identified, refunded, or adjusted by the beginning of our audit. Before our fieldwork, providers


Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                i
had refunded $1,674,240 of overpayments for another 672 line items. The remaining 563 line
items were correct.

For the 862 incorrect line items with overpayments of $2,169,751 that had not been refunded,
providers reported a combination of incorrect units of service and incorrect HCPCS codes,
reported incorrect units of service, billed separately for an outpatient drug for which payment
was packaged with the primary service, billed for noncovered use of a drug, did not provide
supporting documentation, and used incorrect HCPCS codes. For the 38 incorrect line items
with underpayments of $16,437 that had not been adjusted, we notified the providers of the
underpayments so that they could decide whether to submit adjustment claims.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractors overpaid these providers because there were insufficient edits in place to prevent or
detect the overpayments.

WHAT WE RECOMMEND

We recommend that Palmetto GBA:

    •   recover the $2,169,751 in identified overpayments,

    •   verify the payment of $16,437 in identified underpayments, and

    •   use the results of this audit in its on-going provider education activities.

PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto GBA concurred with our findings and
recommendations and described corrective actions it had taken or planned to take to address
them.




Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                ii
                                                     TABLE OF CONTENTS

INTRODUCTION .....................................................................................................................1

           Why We Did This Review .............................................................................................1

           Objective ........................................................................................................................1

           Background ....................................................................................................................1
                 Medicare Part B .................................................................................................1
                 Healthcare Common Procedure Coding System Codes.....................................2
                 Medicare Contractor Edits .................................................................................2
                 Palmetto GBA, LLC ..........................................................................................3

           How We Conducted This Review..................................................................................3

FINDINGS .................................................................................................................................3

           Federal Requirements ....................................................................................................4

           Overpayments to Providers That Billed Incorrectly or Did Not Document
            That the Services Billed Had Been Performed ...........................................................5
                  Combination of Incorrect Number of Units of Service and
                    Incorrect Healthcare Common Procedure Coding System Codes ..................5
                  Incorrect Number of Units of Service ................................................................5
                  Billed Separately for Packaged Services ...........................................................6
                  Noncovered Use of a Drug ................................................................................6
                  Lack of Supporting Documentation ...................................................................7
                  Incorrect Healthcare Common Procedure Coding System Codes ....................7

           Underpayments to Providers That Billed Incorrectly ....................................................7

           Causes of Incorrect Medicare Payments ........................................................................7

RECOMMENDATIONS ...........................................................................................................8

PALMETTO GBA COMMENTS .............................................................................................8

APPENDIXES

           A: Related Office of Inspector General Reports: Jurisdiction 11 ................................9

           B: Audit Scope and Methodology ..............................................................................11

           C: Federal Requirements Related to Medicare Contractor Payment and
               Provider Billing for Selected Outpatient Drugs ..................................................13

           D: Palmetto GBA Comments......................................................................................15



Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                                                           iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Centers for Medicare & Medicaid Services (CMS) pays Medicare claims through the
Medicare administrative contractor or fiscal intermediary (Medicare contractor 1) in each
Medicare jurisdiction. From July 1, 2009, through June 30, 2012, Medicare contractors
nationwide paid hospitals $11.5 billion for outpatient drugs, which also include biologicals and
radiopharmaceuticals. 2

Previous Office of Inspector General reports have found that Medicare contractors overpaid
providers by more than $122.4 million for outpatient drugs. We identified $4.6 million of these
overpayments in reviews of selected outpatient drugs at 39 providers and $24.2 million in
nationwide reviews of the drug Herceptin. We identified approximately $81.9 million of
payments for outpatient drugs in reviews of payments that exceeded provider charges by at least
$1,000 and identified approximately $11.7 million of payments for outpatient drugs in reviews of
payments at high risk for overpayments. 3 (See Appendix A for a list of reports related to
Jurisdiction 11.)

This report is part of a series of reports focusing on payments for selected outpatient drugs.

OBJECTIVE

Our objective was to determine whether payments that the Medicare contractors for Jurisdiction 11
made to providers for selected outpatient drugs were correct.

BACKGROUND

Medicare Part B

Part B of Medicare provides supplementary medical insurance, including coverage for the cost of
outpatient drugs. CMS administers Part B and contracts with Medicare contractors to, among
other things, determine reimbursement amounts and pay claims, conduct reviews and audits, and
safeguard against fraud and abuse. Medicare contractors must establish and maintain efficient


1
  Currently, Medicare administrative contractors pay Medicare claims. For some jurisdictions, fiscal intermediaries
paid claims during some or all of our audit period. In this report, the term “Medicare contractor” means the fiscal
intermediary or Medicare administrative contractor, whichever is applicable.
2
 Biologicals are medicinal preparations made from living organisms and their products (for example, serums,
vaccines, antigens, and antitoxins); radiopharmaceuticals are radioactive drugs used for diagnostic or therapeutic
purposes.
3
  Although the selected provider and Herceptin audits included only outpatient drugs, the payments-greater-than-
charges audits, with overpayments totaling $106 million, and the excessive-claim-payments audits, with
overpayments totaling $44 million, included all types of outpatient services. Some of the reviews of payments that
exceeded provider charges covered amounts between $500 and $1,000. We considered high-risk payments as those
that exceeded $10,000 for claims under Part B and exceeded $50,000 for claims for outpatient services. We
estimated the total overpayment amount for selected outpatient drug services for these audits.


Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                                1
and effective internal controls. 4 These controls, including those over automatic data processing
systems, are intended to prevent increased program costs caused by incorrect or delayed
payments. Medicare contractors use the Common Working File (CWF) and Fiscal Intermediary
Standard System (FISS) to validate providers’ claims for outpatient services before paying the
claims. Medicare contractors calculate the payment for each outpatient service using FISS’s
Hospital Outpatient Prospective Payment System (OPPS). These three systems can also detect
certain improper payments.

Healthcare Common Procedure Coding System Codes

Medicare contractors pay providers using established rates for each hospital outpatient unit of
service claimed, subject to any Part B deductible and coinsurance. Medicare guidance requires
providers to submit accurate claims for outpatient services. Each submitted claim may contain
multiple line items that detail most provided services. 5 Providers must use standardized codes,
called Healthcare Common Procedure Coding System (HCPCS) codes, for drugs administered
and report units of service in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the HCPCS code specifies 50 milligrams and 200 milligrams
are administered, units are shown as 4.

Medicare Contractor Edits

To reduce payment errors, CMS introduced a number of claims-review initiatives that identify
and address incorrect billing due to coverage or coding errors made by providers. One of these
review initiatives, established in January 2007, is the “Medically Unlikely Edits” prepayment
claims review program. Medically unlikely edits are developed and maintained by the CMS
National Correct Coding Initiative contractor. 6

Medically unlikely edits are automatic prepayment edits within the FISS that compare the billed
units with the maximum units of service for a given HCPCS code. The maximum units of
service are the maximum number of units that a provider would reasonably administer to a
patient for that service on a single date of service. A medically unlikely edit denies line items for
units of service that exceed the maximum units for the HCPCS code billed.

Medically unlikely edits, which are updated each quarter, do not exist for all HCPCS codes.
Before implementing new medically unlikely edits, CMS offers national health care
organizations the opportunity to review and comment on the proposed edits. Medicare
contractors must include the medically unlikely edits in their payment systems. 7
4
    CMS, Medicare Financial Management Manual, Pub. No. 100-06, chapter 7, section 10.
5
  Some claim line items included on outpatient claims do not identify the specific services provided but just identify
the revenue code and billed charges. These line items are generally not paid because the services are bundled into
other services that are specifically identified.
6
  The contractor, Correct Coding Solutions, LLC, provides a revised medically unlikely edit table to CMS each
quarter. CMS then distributes the revised medically unlikely edit table with the revised national correct coding
initiative table to the Medicare contractors.
7
 CMS makes the majority of medically unlikely edits publicly available on its Web site. However, CMS does not
publish all medically unlikely edit values, particularly for outpatient drugs, because of fraud and abuse concerns.


Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                                2
Palmetto GBA, LLC

Before May 16, 2011, Palmetto GBA, LLC, was the Medicare contractor for North Carolina and
South Carolina, and National Government Services was the Medicare contractor for Virginia and
West Virginia. Effective May 16, 2011, Palmetto GBA became the Medicare contractor for
Jurisdiction 11 (North Carolina, South Carolina, Virginia, and West Virginia) and assumed
responsibility for claims formerly paid by National Government Services. Accordingly, we have
addressed our findings and recommendations to Palmetto GBA for review and comment.

HOW WE CONDUCTED THIS REVIEW

During our audit period (July 1, 2009, through June 30, 2012), the Medicare contractors for
Jurisdiction 11 paid providers $977.3 million for 1.8 million line items for selected outpatient
drugs. We reviewed 2,135 line items 8 with total payments of $12.7 million that were at risk for
overpayment. These line items were for outpatient drugs with payment status indicator code “G”
or “K.” 9 We used computer matching, data mining, and other analytical techniques to identify
the line items potentially at risk for noncompliance with Medicare billing requirements. We
evaluated compliance with selected billing requirements, but we did not use medical review to
determine whether services were medically necessary.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix B for the details of our scope and methodology.

                                                       FINDINGS

Payments that the Medicare contractors for Jurisdiction 11 made to providers for 900 of the
2,135 line items for outpatient drugs we reviewed were not correct. These incorrect payments
resulted in overpayments of $2,169,751 and underpayments of $16,437 that the providers had not
identified, refunded, or adjusted by the beginning of our audit. Before our fieldwork, providers
had refunded $1,674,240 of overpayments for another 672 line items. The remaining 563 line
items were correct.

For the 862 incorrect line items with overpayments of $2,169,751 that had not been refunded,
providers:



8
    In this audit, we did not review entire claims; rather, we reviewed specific line items within the claims.
9
  “G” and “K” identify drugs that are separately paid by Medicare. “G” identifies drugs and biologicals paid using
the OPPS that include a pass-through payment. (Pass-through payments are additional payments made for a short
time to cover the cost for certain innovative medical devices, drugs, and biologicals that exceed Medicare’s OPPS
payment amount.) “K” identifies drugs, biologicals, therapeutic radiopharmaceuticals, brachytherapy sources of
radiation, blood, and blood products paid using the OPPS without a pass-through payment.


Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                               3
       •   reported a combination of
           incorrect units of service and
           incorrect HCPCS codes on
           326 line items, resulting in
           overpayments of $686,815;

       •   reported incorrect units of
           service on 167 line items,
           resulting in overpayments of
           $563,166;

       •   billed separately for an
           outpatient drug for which
           payment was packaged with
           the primary service on 145
           line items, resulting in
           overpayments of $483,574;

       •   billed for the noncovered use of a drug on 164 line items, resulting in overpayments of
           $290,964;

       •   did not provide supporting documentation for 27 line items, resulting in overpayments of
           $94,245; and

       •   used incorrect HCPCS codes on 33 line items, resulting in overpayments of $50,987.

For the 38 incorrect line items with underpayments of $16,437 that had not been adjusted, we
notified the providers of the underpayments so that they could decide whether to submit
adjustment claims.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractors overpaid these providers because neither the CWF nor the FISS had sufficient edits
in place to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

The Social Security Act (the Act) and CMS Pub. No. 100-04, Medicare Claims Processing
Manual (the Manual), provide overall requirements related to the billing and payment of hospital
outpatient services. They require that providers submit accurate and complete bills to Medicare
for allowable and covered services and identify the number of units of service for each outpatient
drug administered to a Medicare beneficiary using the correct HCPCS code. 10

See Appendix C for details on the Federal requirements related to Medicare contractor payment
and provider billing for selected outpatient drugs.

10
     These requirements are found in the Act, section 1833(e), and the Manual, chapter 17, section 90.2.A.


Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                       4
OVERPAYMENTS TO PROVIDERS THAT BILLED INCORRECTLY OR DID NOT
DOCUMENT THAT THE SERVICES BILLED HAD BEEN PERFORMED

Combination of Incorrect Number of Units of Service and
Incorrect Healthcare Common Procedure Coding System Codes

Providers reported a combination of incorrect units of service and incorrect HCPCS codes on
326 line items. These errors resulted in overpayments of $686,815. The following are examples:

    •   One provider billed Medicare on 60 line items for 2 to 12 units of service for leuprolide
        acetate injections (HCPCS code J1950, 3.75 milligrams per unit), which is indicated for
        the treatment of endometriosis, uterine leiomyoma, and malignant neoplasm of the breast.
        However, the provider should have billed Medicare for 1 to 6 units of service for the
        leuprolide acetate injections (HCPCS code J9217, 7.5 milligrams per unit), which is
        indicated for the treatment of prostate cancer and was the dose actually administered. As
        a result of these errors, the Medicare contractor paid the provider $166,191 when it
        should have paid $34,268, an overpayment of $131,923.

    •   Another provider billed Medicare on one line item for units of service unrelated to the
        drug administered. The provider billed Medicare for 200 units of service for a
        pralatrexate injection (HCPCS code J9307), a cancer drug. However, the provider should
        have billed for 40 units of service for an epoetin alfa injection for non-end stage renal
        disease use (HCPCS code J0885). As a result of this error, the Medicare contractor paid
        the provider a total of $31,995 when it should have paid $302, an overpayment of
        $31,693.

In total, the Medicare contractor paid 33 providers $847,607 when it should have paid $160,792,
an overpayment of $686,815.

Incorrect Number of Units of Service

Providers reported incorrect units of service on 167 line items, resulting in overpayments of
$563,166. The incorrect units of service involved 38 different outpatient drugs. The following
are examples:

    •   One provider administered 600 milligrams of infliximab to a patient and billed for
        600 units of service. Using the HCPCS description (injection, infliximab, 10 milligrams),
        the correct number of units of service to bill for 600 milligrams was 60. On five separate
        occasions, this type of error occurred, and as a result, the Medicare contractor paid the
        provider $114,116 when it should have paid $9,559, an overpayment of $104,557.

    •   Another provider administered 260 mg of bevacizumab to a patient and billed for 1,200
        units of service. Bevacizumab is provided in 100-milligram single-use vials. Using the
        HCPCS description (injection, bevacizumab, 10 milligrams), each single-use vial is
        billable as 10 units of service. Therefore, the correct number of units of service to bill for
        260 milligrams was 30. As a result, the Medicare contractor paid the provider $66,628
        when it should have paid $1,353, an overpayment of $65,275.



Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)               5
In total, the Medicare contractor paid 54 providers $1,140,774 when it should have paid
$577,608, an overpayment of $563,166.

Billed Separately for Packaged Services

For selected outpatient drugs that have multiple HCPCS codes, providers billed Medicare on
145 line items using the HCPCS code that Medicare pays separately instead of the HCPCS code
that Medicare does not pay separately, resulting in overpayments of $483,574. These line items
involved three different packaged outpatient drugs.

Medicare pays for outpatient drugs that are considered primary procedures but does not pay
separately for outpatient drugs when their payment is packaged in the payment of a primary
procedure. Medicare has different HCPCS codes for similar drugs to distinguish which are paid
separately and which are not paid separately.

For example, one provider billed Medicare for dexamethasone intravitreal implant injection
(HCPCS code J7312) rather than dexamethasone sodium phosphate injection (HCPCS code
J1100), the drug actually administered. During the dates of service that the provider
administered this drug, Medicare packaged the sodium phosphate formulation in the payment for
related services and did not provide for separate reimbursement under the OPPS. On 119
separate occasions, this error occurred; as a result, the Medicare contractor paid the provider
$394,127 when it should have paid $0, an overpayment of $394,127.

In total, the Medicare contractor paid four providers $483,574 for packaged drugs when it should
have paid $0, an overpayment of $483,574.

Noncovered Use of a Drug

Providers billed Medicare for the noncovered use of an outpatient drug on 164 line items. These
errors resulted in overpayments of $290,964.

For example, four providers billed Medicare for the noncovered use of the drug reteplase
(HCPCS code J2993, 18.1 milligrams per unit). Reteplase is approved by the Food and Drug
Administration (FDA) to treat cardiac conditions using a single-use dose. However, each
provider split a single dose into multiple doses and used them as a thrombolytic agent to clean
dialysis patient catheters. 11 Each provider then billed Medicare for one or more single-use doses
of reteplase for each multiple dose administered.

Providers must identify on their claims that the billed service was for the unlabeled use of a
drug. 12 However, each of the four providers submitted these line items as if the single-use dose
had been administered for the covered use. Consequently, the Medicare contractor did not know
that the 162 line items were for a small amount of the covered dose and were given for an
11
  The Manual, chapter 8, section 60.2.1.1, identifies thrombolytics as drugs “used to declot central venous
catheters” during the treatment of a patient’s renal condition. During the audit period, thrombolytics were separately
billable drugs.
12
 Providers should indicate the unlabeled use of a drug or biological (Medicare Benefit Policy Manual, CMS Pub.
No. 100-02, chapter 15, § 50.4.2). Providers use the remarks section of the claim for this purpose.


Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                              6
unlabeled use that required a case-by-case payment determination. The Medicare contractor paid
the four providers a total of $286,640 when it should have paid $0, an overpayment of $286,640.

In total, the Medicare contractor paid six providers $290,964 for the noncovered use of drugs
when it should have paid $0, an overpayment of $290,964.

Lack of Supporting Documentation

Sixteen providers billed Medicare on 27 line items for which the providers did not provide any
documentation to support that a patient had received the drug service billed. The providers
agreed to cancel the claims associated with these line items or file adjusted claims and refund the
combined $94,245 in overpayments that they received.

Incorrect Healthcare Common Procedure Coding System Codes

Providers used incorrect HCPCS codes on 33 line items, resulting in overpayments of $50,987.
For example, 1 provider billed Medicare on 5 line items for 12 units of service unrelated to the
drug administered. The provider incorrectly billed HCPCS code J1950 (leuprolide acetate
injection). The provider should have billed for HCPCS code J9065 (cladribine injection) the
drug actually administered. As a result of these errors, the Medicare contractor paid the provider
$30,170 when it should have paid $1,090, an overpayment of $29,080.

In total, the Medicare contractor paid 14 providers $61,691 when it should have paid $10,704, an
overpayment of $50,987.

UNDERPAYMENTS TO PROVIDERS THAT BILLED INCORRECTLY

Providers billed Medicare on 38 line items for outpatient drug services that included incorrect
units of service, incorrect HCPCS codes, or a combination of incorrect units of service and
incorrect HCPCS codes, resulting in underpayments of $16,437. We identified these
underpayments and notified the providers so that they could decide whether to submit adjustment
claims for the underpayment amounts.

CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect billings to clerical errors and to provider billing systems
that could not prevent or detect the incorrect billing of outpatient drug services. These billing
systems errors included chargemaster 13 errors and other system errors.

The Medicare contractors overpaid these providers because neither the CWF nor the FISS had
sufficient edits in place to prevent or detect the overpayments. In effect, CMS relied on




13
  A provider’s chargemaster is an automatic data processing system that providers use as part of their billing
systems. The chargemaster contains data on every chargeable item or procedure that the provider offers, including
(1) a factor that converts a drug’s dosage to the number of units to bill and (2) whether to charge for waste.


Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                              7
providers to notify the Medicare contractor of incorrect payments and on beneficiaries to review
their Medicare Summary Notice and disclose any overpayments. 14

Other required edits in the CWF and FISS did not detect the errors that we found because the
edits suspended only those payments that exceeded a payment amount threshold but did not flag
payments that exceeded maximum billing units. Medically unlikely edits, which deny line items
for excessive units of service billed, do not exist for all HCPCS codes.

                                          RECOMMENDATIONS

We recommend that Palmetto GBA:

     •   recover the $2,169,751 in identified overpayments,

     •   verify the payment of $16,437 in identified underpayments, and

     •   use the results of this audit in its on-going provider education activities.

                                    PALMETTO GBA COMMENTS

In written comments on our draft report, Palmetto GBA concurred with our findings and
recommendations and described corrective actions it had taken or planned to take to address
them. Palmetto GBA’s comments are included in their entirety as Appendix D.




14
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.


Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                                8
      APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS:
                           JURISDICTION 11

                       Report Title                              Report Number           Date Issued

 Medicare Contractors’ Payments to Providers in
 Jurisdiction 11 for Full Vials of Herceptin Were                A-03-11-00013           08/10/2012
 Often Incorrect

 Virginia Commonwealth University Medical Center
 Incorrectly Billed Medicare for the Biological Drug             A-03-12-00009           06/19/2012
 Myozyme

 Review of Medicare Payments Exceeding Charges
 by $500 to $1,000 for Outpatient Services Processed
 by National Government Services but Transitioned                A-03-11-00005           11/30/2011
 to Palmetto GBA, LLC, in Jurisdiction 11 for the
 Period January 1, 2006, Through June 30, 2009

 Review of Medicare Payments Exceeding Charges
 for Outpatient Services Processed by National
 Government Services but Transitioned to Palmetto                A-03-10-00005           11/30/2011
 GBA, LLC, in Jurisdiction 11 for the Period January
 1, 2006, Through June 30, 2009

 Review of Medicare Payments Exceeding Charges
 by $500 to $1,000 for Outpatient Services Processed
                                                                 A-03-11-00006           10/05/2011
 by Palmetto GBA, LLC, in Jurisdiction 11 for the
 Period January 1, 2006, Through June 30, 2009

 Review of Medicare Payments Exceeding Charges
 for Outpatient Services Processed by Palmetto GBA,
                                                                 A-03-10-00006           10/05/2011
 LLC, in Jurisdiction 11 for the Period January 1,
 2006, Through June 30, 2009

 Review of High-Dollar Payments for Virginia and
 West Virginia Outpatient Claims Processed by
                                                                 A-03-07-00015           10/29/2009
 National Government Services for Calendar Years
 2003-2005

 Review of High-Dollar Payments for Virginia
 Medicare Part B Claims Processed by TrailBlazer
                                                                 A-03-07-00020           09/24/2008
 Health Enterprises for the Period January 1, 2003,
 Through December 31, 2005




Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                 9
                       Report Title                              Report Number           Date Issued

 Review of High-Dollar Payments for West Virginia
 Medicare Part B Claims Processed by Palmetto
                                                                 A-03-07-00021           09/10/2008
 GBA for the Period January 1, 2003, Through
 December 31, 2005




Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                 10
                     APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

During our audit period (July 1, 2009, through June 30, 2012), the Medicare contractors for
Jurisdiction 11 paid providers $977.3 million for 1.8 million line items for selected outpatient
drugs. We reviewed 2,135 line items totaling $12,733,111 that the Medicare contractors paid to
113 providers. 15 We did not review entire claims; rather, we reviewed specific line items within
the claims. These line items included selected outpatient drugs with payment status indicator
code “G” or “K.” “G” identifies drugs and biologicals paid using the OPPS that include a pass-
through payment. 16 “K” identifies drugs, biologicals, therapeutic radiopharmaceuticals,
brachytherapy sources of radiation, blood, and blood products paid using the OPPS without a
pass-through payment.

We did not review the overall internal control structure of the Medicare contractors or the
providers because our objective did not require us to do so. Rather, we limited our review to
(1) the Medicare contractors’ internal controls to prevent the overpayment of Medicare claims
associated with the selected outpatient drugs and (2) providers’ internal controls to prevent
incorrect billing for outpatient drugs. Our review allowed us to establish reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

We conducted our audit from October 2012 through March 2013 and performed fieldwork by
contacting Palmetto GBA in Columbia, South Carolina, and 113 providers that received the
selected Medicare payments during our audit period.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and guidance;

     •   used CMS’s National Claims History file to identify outpatient line items for selected
         outpatient drugs (HCPCS codes with payment status indicator code “G” or “K”) for
         which Medicare payments were made during our audit period;

     •   used computer matching, data mining, and other analytical techniques to identify
         payments for outpatient drugs for which the number of units the provider billed was more
         than the number of units the provider would reasonably administer to a patient on a single
         date of service because these line items were at risk for noncompliance with Medicare
         billing requirements;

15
  The audit included a small number of line items for services provided before July 1, 2009, that were paid during
our audit period and a small number of line items for services provided before June 30, 2012, that were paid after
that date.
16
 Pass-through payments are additional payments made for a short time to cover the cost for certain innovative
medical devices, drugs, and biologicals that exceed Medicare’s OPPS payment amount.


Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)                               11
    •   selected 2,135 line items at risk of error, totaling $12,733,111, that the Medicare
        contractors paid to 113 providers;

    •   requested that the 113 providers furnish documentation to support the services billed,
        including:

            o the physician’s order supporting the outpatient drug and amount ordered,

            o the drug administration record supporting that the outpatient drug was
              administered in the amount ordered, and

            o relevant financial or administrative notes related to the Medicare claim;

    •   reviewed the documentation provided to determine whether:

            o the billed information for the selected line items was correct and, if not, why the
              line item was incorrect,

            o the providers identified and adjusted the claim items before our review, and

            o the claimed units of the outpatient drug were based on dosing instructions
              provided with the packaging and any limitation on use (such as single-use or
              multiuse);

    •   calculated overpayment amounts, including adjustments to the claims due to changes in
        the allocation of the coinsurance amounts, in accordance with Federal requirements and
        Medicare payment procedures or used the amount determined by the Medicare
        contractor; and

    •   discussed the results of our review with providers and the Medicare contractor.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)              12
        APPENDIX C: FEDERAL REQUIREMENTS RELATED TO MEDICARE
              CONTRACTOR PAYMENT AND PROVIDER BILLING
                    FOR SELECTED OUTPATIENT DRUGS

FEDERAL LAW AND REGULATIONS

The Act, section 1833(e), states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

Further, the Act, sections 1861(s)(2) and 1861(t), define the terms “medical and other health
services” and “drugs and biologicals,” respectively. These sections identify those drug and
biological services that are covered services under the Medicare Part B program and also identify
any noncovered or excluded drug and biological services.

Federal regulations provide the methodology that Medicare uses to calculate payment for drugs
and biologicals, including the calculation of the coinsurance payment, which is limited to the
inpatient deductible amount for each year (42 CFR § 419.41).

CENTERS FOR MEDICARE & MEDICAID SERVICES GUIDANCE

CMS Pub. No. 100-06, Medicare Financial Management Manual, chapter 7, section 10, states:
“[CMS] contractors shall administer the Medicare program efficiently and economically to
achieve the program objectives.” Further, the Federal Managers’ Financial Integrity Act of 1982
(FMFIA) “establishes internal control requirements that shall be met by CMS. For CMS to meet
the requirements of FMFIA, CMS contractors shall demonstrate that they comply with the
FMFIA guidelines.” Consequently, “the contractor shall establish and maintain efficient and
effective internal controls to perform the requirements of the contract….”

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

The Manual, chapter 23, section 20.3, states: “providers must use HCPCS codes … for most
outpatient services.”

The Manual, chapter 4, section 20.4, states: “The definition of service units … is the number of
times the service or procedure [HCPCS code] being reported was performed.”

The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for these products [outpatient drugs] make certain that the reported units of service of the
reported HCPCS code are consistent with the quantity of a drug, biological, or
radiopharmaceutical that was used in the care of the patient.”

The Manual, chapter 17, section 10, states: “If the drug dose used in the care of a patient is not a
multiple of the HCPCS code dosage descriptor, the provider rounds to the next highest unit based
on the HCPCS long descriptor for the code in order to report the dose provided.”



Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)             13
The Manual, chapter 17, section 70, states that, if the provider is billing for an outpatient drug for
which an “HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 [milligrams], and
200 [milligrams] are provided, units are shown as 4 ….”

The Manual, chapter 17, section 40, states:

        When a physician, hospital or other provider or supplier must discard the
        remainder of a single use vial or other single use package after administering a
        dose/quantity of the drug or biological to a Medicare patient, the program
        provides payment for the amount of drug or biological discarded as well as the
        dose administered, up to the amount of the drug or biological as indicated on the
        vial or package label.

The section further notes: “Multi-use vials are not subject to payment for discarded amounts of
drug or biological.”

The Manual, chapter 1, section 140.1, states that Medicare contractors must “edit for outpatient
and inpatient Part B claims that meet or exceed a reimbursement amount of $50,000.” The
section further notes that Medicare contractors must “suspend those claims receiving the
threshold edit for development and contact providers to resolve billing errors.” If the Medicare
contractor determines that the reimbursement is excessive and corrections are required, the claim
must be returned to the provider. If the billing is accurate and the reimbursement is not
excessive, the Medicare contractors will override the edit and process the claim for payment.

CMS Pub. No. 100-02, Medicare Benefit Policy Manual (chapter 15, section 50.4.2), states:

        An unlabeled use of a drug is a use that is not included as an indication on the
        drug’s label as approved by the FDA. FDA approved drugs used for indications
        other than what is indicated on the official label may be covered under Medicare
        if the carrier determines the use to be medically accepted, taking into
        consideration the major drug compendia, authoritative medical literature and/or
        accepted standards of medical practice.… These decisions are made by the
        contractor on a case-by-case basis.




Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)             14
                        APPENDIX D: PALMETTO GBA COMMENTS




December 30, 2013



Stephen Virbitsky
Office of Inspector General
Office of Audit Services, Region III
150 S. Independence Mall West
Philadelphia, PA 19105-3499

Reference: Draft Report No. A-03-13-00011

Dear Mr. Virbitsky:

This letter is in response to the recent Office of Inspector general (OIG) report entitled
“Medicare Contractor Jurisdiction 11 Overpaid Providers for Selected Outpatient Drugs”. We
appreciate the feedback your review provided and are committed to continuously improving our
service to the Medicare beneficiaries and providers we serve.

During the audit period (July 1, 2009 through June 30, 2012), Palmetto GBA, LLC (Palmetto)
was the Medicare contractor for North Carolina and South Carolina. From July 1, 2009 through
May 15, 2011, National Government Services (NGS) was the Medicare contractor for Virginia
and West Virginia. Effective May 16, 2011, Palmetto became the Medicare contractor for
Jurisdiction 11 (North Carolina, South Carolina, Virginia, and West Virginia) and assumed
responsibility for claims formerly paid by NGS.

During the audit period 2,135 line items were selected in which:

        (1)          672 lines were refunded by providers before fieldwork;

        (2)          563 lines were correct;

        (3)          862 incorrect line items with overpayments of $2,169,751 were not refunded
                     by providers; and

        (4)          38 incorrect line items with underpayments of $16,437 were not adjusted.

Providers attributed the incorrect billings to clerical errors and to provider billing systems that
could not prevent or detect the incorrect billing of outpatient drug services. The Medicare
contractors overpaid these providers because neither the CWF nor the FISS had sufficient edits
in place prevent or detected the overpayments. The following was recommended by your office:



Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)          15
Stephen Virbitsky
December 30, 2013
Page 2

    •   Recover the $2,169,751 identified overpayments.
        Palmetto GBA Response:

        Palmetto GBA will establish overpayments as claims are adjusted and recover
        overpayment via CMS-directed debt collection guidelines.

    •   Verify the payment of $17,437 in identified underpayments.
        Palmetto GBA Response:

        Palmetto GBA will verify underpayments identified and assist providers adjusting claims
        as needed, if they choose to do so.

    •   Use the results of this audit in its on-going provider education activities.
        Palmetto GBA Response:

        Palmetto GBA has continuously published and/or conducted educational efforts as it
        pertains to the correct billing of drugs as listed below:

            o General Articles:
                  Chemotherapy and Biologicals: Medicare Guidance

            o Drug related Articles:
                  Infusion, Injection and Hydration Services
                  Golimumab, Simponi Aria Coding Guideleines
                  Kyprolis (Carfilzomib) Coding and Billing Guidelines and Indications
                  Testopel (Testosterone) Pellets: Coding Reminder
                  Aflibercept (Eylea) Coding and Billing Guidelines
                  Provenge (sipuleucel-T)

            o Medically Unlikely Edits:
                 Part A Ask the Contractor Teleconference – April and October, 2013
                 Provider Outreach and Education Advisory Group Teleconference – July,
                    2013

            o Drug Billing:
                  FAQ – Can I Bill for Drug Wastage from a Multi-Dose/Multiuse Vial or
                    package of Drug or Biological?

            o HCPCS Codes:
                 Neupogen (J1440), J2505 (Neulasta) and J1745 (Remicade)
                     • FAQ – How Should I Submit Part A Biological Response
                        Modifiers (BRM)/Monoclonal Antibodies Administration?
                 Herceptin (J9355)
                     • Article – Herceptin (Trastuzumab): Coverage and Billing
Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)       16
Stephen Virbitsky
December 30, 2013
Page 3

                             •
                           Article – Completion of Prepayment Service-Specific Targeted
                           Medical Review of HCPCS Code J9355 Trastuzumab (Herceptin)
                        • FAQ – If our pharmacy incorrectly reconstituted Herceptin
                           (Trastuzumab) using sterile water instead of bacteriostatic water,
                           and we are unable to store and use the rest of the vial, can our
                           facility bill for the wasted drug and the administered amount?
            o Rituximab (J9310) and Bevacizumab (J9035)
                  Article – Incorrect Number of Units Billed for Rituximab (HCPCS J9310)
                     and Bevacizumab (HCPCS C9257 and J9035) – Dose versus Units Billed

            o Face to Face education and Tours which covered Drugs and Biologicals,
              Lack of Supporting Documentation, Packaged Services, Incorrect units of
              Service, Non-covered Use of Drugs

                     o Face to face seminar Health Insurance Institute – Greensboro NC – Oct
                       2012
                     o Part A 2012 Fall Tour
                     o Part A 2013 Fall Tour

In closing, Palmetto GBA understands the importance of correct coding, billing and payment
activities.

Thank you for providing Palmetto GBA with the opportunity to offer feedback regarding your
review. If you have any questions, please do not hesitate to contact me.

                                                 Sincerely

                                                 Sincerely




cc:     Any Drake, COR, CMS
        Sandra Brown, CMS
        Carol Sutton, Palmetto GBA
        Ed Sanchez, Palmetto GBA




Medicare Overpayments in Jurisdiction 11 for Selected Outpatient Drugs (A-03-13-00011)         17
